                                                                      O FFICE OF A UDIT S ERVICES , R EGION I
                                                                                    JFK F EDERAL B UILDING
                                                                     15 N EW S UDBURY S TREET, R OOM 2425
                                                                                       B OSTON , MA 02203
June 26, 2012

Report Number: A-01-12-00008

JudyAnn Bigby, M.D.
Secretary
Executive Office of Health and Human Services
One Ashburton Place, 11th Floor
Boston, MA 02108

Dear Dr. Bigby:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector General
(OIG), final report entitled Massachusetts Medicaid Payments to Cedar Hill Health Care Center Did Not
Always Comply With Federal and State Requirements. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported. We
request that you respond to this official within 30 days from the date of this letter. Your response should
present any comments or additional information that you believe may have a bearing on the final
determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly available
reports on the OIG Web site. Accordingly, this report will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or contact
Curtis Roy, Audit Manager, at (617) 565-9281 or through email at Curtis.Roy@oig.hhs.gov. Please refer
to report number A-01-12-00008 in all correspondence.

                                                  Sincerely,



                                                  /Michael J. Armstrong/
                                                  Regional Inspector General
                                                    for Audit Services


Enclosure
Page 2 – Dr. JudyAnn Bigby

Direct Reply to HHS Action Official:

Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   MASSACHUSETTS MEDICAID
    PAYMENTS TO CEDAR HILL
  HEALTH CARE CENTER DID NOT
ALWAYS COMPLY WITH FEDERAL AND
     STATE REQUIREMENTS




                        Daniel R. Levinson
                         Inspector General

                            July 2012
                          A-01-12-00008
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Massachusetts Executive Office of Health and Human Services, Office of Medicaid (State
agency), is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies. The State agency
reimburses nursing homes based on an established per diem rate for services provided to
Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must use certain
additional resources that a beneficiary has, including Social Security payments, to reduce
Medicaid payments to nursing homes. The State agency determines the amount of the
beneficiary’s contribution during the financial eligibility process and enters this amount into its
computer system. The beneficiary’s contribution is remitted to the nursing home each month.

When the State agency reimburses the nursing home and does not reduce the Medicaid per diem
payment to the nursing home by the amount of the beneficiary’s contribution, the nursing home
could receive overpayments. Pursuant to Medicaid requirements, the nursing home must return
any overpayments to the State Medicaid program, which in turn is required to refund the Federal
share to the Centers for Medicare & Medicaid Services (CMS) on its Form CMS-64, Quarterly
Statement of Expenditures for the Medical Assistance Program.

Cedar Hill Health Care Center (Cedar Hill) is a Massachusetts certified Medicare and Medicaid
nursing home provider located in Randolph, Massachusetts.

OBJECTIVE

Our objective was to determine whether the State agency made Medicaid payments to Cedar Hill
in accordance with Federal and State requirements from January 2006 through March 2012.

SUMMARY OF FINDING

The State agency generally made Medicaid payments in accordance with Federal and State
requirements to Cedar Hill. However, the State agency did not always adjust its Medicaid per
diem payments to Cedar Hill by the amount of beneficiaries’ cost-of-care contributions from
resources, such as Social Security and pensions. As a result, the State agency’s Federal claim
was overstated by a total of $32,463 ($17,896 Federal Share). We attributed the incorrect
Medicaid payments to clerical and billing errors.

RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $32,463 from Cedar Hill and refund the Federal share of
       $17,896 and




                                                  i
   •   continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.

CEDAR HILL HEALTH CARE CENTER COMMENTS

In written comments on our draft report, Cedar Hill agreed with our finding. Cedar Hill’s
comments are included in their entirety as Appendix B.

STATE AGENCY COMMENTS

In written comments on our draft report, the State Agency agreed with our finding. The State
agency’s comments are included in their entirety as Appendix C.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                         Page

INTRODUCTION..........................................................................................................1

          BACKGROUND .................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................1
               Objective ..................................................................................................1
               Scope ........................................................................................................1
               Methodology ............................................................................................2

FINDING AND RECOMMENDATIONS ...................................................................2

          FEDERAL AND STATE MEDICAID REQUIREMENTS................................2

          UNADJUSTED NURSING HOME PAYMENTS .............................................3

          AMOUNT OWED TO THE FEDERAL GOVERNMENT ................................3

          CAUSE OF UNREPORTED OVERPAYMENTS .............................................3

          RECOMMENDATIONS .....................................................................................3

          CEDAR HILL HEALTH CARE CENTER COMMENTS .................................3

          STATE AGENCY COMMENTS ........................................................................4

APPENDIXES

          A: MEDICAID OVERPAYMENTS TO CEDAR HILL HEALTH CARE BY
             CALENDAR YEAR

          B: CEDAR HILL HEALTH CARE CENTER COMMENTS

          C: STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administer the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. The
Massachusetts Executive Office of Health and Human Services, Office of Medicaid (State
agency), is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies.

The State agency reimburses nursing homes based on an established per diem rate for services
provided to Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must
use certain additional resources that a beneficiary has, including Social Security payments, to
reduce its Medicaid payments to nursing homes. The State agency determines the amount of the
beneficiary’s contribution to the cost of care during the financial eligibility process and enters
this amount into its computer system. The beneficiary’s cost-of-care contribution is remitted to
the nursing home each month.

When the State agency does not reduce the Medicaid per diem payment to the nursing home by
the amount of the beneficiary’s contribution, the nursing home could receive overpayments.
Pursuant to Medicaid requirements, the nursing home must return the overpayments to the State
Medicaid program, which in turn is required to refund the Federal share to CMS on its Form
CMS-64, Quarterly Statement of Expenditures for the Medical Assistance Program.

Cedar Hill Health Care Center (Cedar Hill) is a Massachusetts certified Medicare and Medicaid
nursing home provider located in Randolph, Massachusetts.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency made Medicaid payments to Cedar Hill
in accordance with Federal and State requirements from January 2006 through March 2012.

Scope

For the period January 2006 through March 2012, we reviewed Medicaid accounts that were at
risk for having overpayments. We limited our review of internal controls to obtaining an
understanding of Cedar Hill’s procedures for reviewing accounts and reporting overpayments to
the Medicaid program.




                                                1
We performed fieldwork from April through May 2012 at Cedar Hill in Randolph,
Massachusetts; the State agency in Boston, Massachusetts; and the CMS Regional Office in
Boston, Massachusetts.

Methodology

To accomplish our objective, we:

   •   reviewed State and Federal regulations pertaining to overpayments,

   •   worked with Cedar Hill officials to identify credit balances in the accounting records that
       were potentially overpayments,

   •   reviewed patient accounts to determine whether overpayments had occurred,

   •   determined the cause of the overpayments, and

   •   coordinated our audit with officials from the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

The State agency generally made Medicaid payments in accordance with Federal and State
requirements to Cedar Hill. However, the State agency did not always adjust its Medicaid per
diem payments to Cedar Hill by the amount of beneficiaries’ cost-of-care contributions from
resources, such as Social Security and pensions. As a result, the State agency’s Federal claim
was overstated by a total of $32,463 ($17,896 Federal Share). We attributed the incorrect
Medicaid payments to clerical and billing errors.

FEDERAL AND STATE MEDICAID REQUIREMENTS

Pursuant to 42 CFR § 435, the State agency must reduce its payment to an institution for services
provided to a Medicaid-eligible individual by the amount that remains after adjusting the
individual’s total income for a personal needs allowance and other considerations that the
regulation specifies. MassHealth regulations at 450.316 note that all resources available to a
member, including but not limited to health and casualty insurance, must be coordinated and
applied to the cost of medical services provided by MassHealth.




                                                2
UNADJUSTED NURSING HOME PAYMENTS

The State made 48 overpayments to Cedar Hill from January 2006 through March 2012
(see Appendix A). Specifically, the State agency did not adjust its Medicaid payments to Cedar
Hill by the amount of beneficiaries’ cost-of-care contributions from resources, such as Social
Security and pensions.

               An Example of a Medicaid Overpayment for One Beneficiary

   Mrs. F was a patient at Cedar Hill during August 2009. Based on her other resources, the
   State agency calculated Mrs. F’s cost-of-care contribution to be $1,000 a month. The State
   agency determined that the nursing home was entitled to a monthly payment of $5,900.
   Because of Mrs. F’s $1,000 cost-of-care contribution, the State agency was responsible for
   only $4,900 of the $5,900 nursing home costs. However, the nursing home received a total
   of $6,900 ($5,900 from the State agency and $1,000 from Mrs. F), because the State
   agency’s computer system did not adjust the payment amount to take into consideration for
   Mrs. F’s cost-of-care contribution. Thus, the nursing home received an overpayment of
   $1,000 ($6,900 minus $5,900) for Mrs. F’s care for the month of August.

AMOUNT OWED TO THE FEDERAL GOVERNMENT

As a result of the overpayments, the State agency’s Federal claim for Medicaid payments made
to Cedar Hill for the period January 2006 through March 2012 was overstated by a total of
$32,463 ($17,896 Federal share).

CAUSE OF UNREPORTED OVERPAYMENTS

We attributed the 48 incorrectly reimbursed Medicaid payments to clerical and billing errors.
State agency officials informed us that they have recently implemented a new computer system
that will reduce future clerical and billing errors.

RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $32,463 from Cedar Hill and refund the Federal share of
       $17,896 and

   •   continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.

CEDAR HILL HEALTH CARE CENTER COMMENTS

In written comments on our draft report, Cedar Hill agreed with our finding. Cedar Hill’s
comments are included in their entirety as Appendix B.


                                               3
STATE AGENCY COMMENTS

In written comments on our draft report, the State Agency agreed with our finding. The State
agency’s comments are included in their entirety as Appendix C.




                                               4
APPENDIXES
APPENDIX A: MEDICAID OVERPAYMENTS TO CEDAR HILL HEALTH CARE
                  CENTER BY CALENDAR YEAR




           Calendar     Number of         Total
            Year       Overpayments   Overpayments

            2006            1             687

            2007            3            1,351

            2008            10           7,497

            2009            2             284


            2010            8            9,754


            2011            20           9,678


            2012            4            3,212


           TOTAL            48          $32,463
                    APPENDIX B: CEDAR HILL HEALTH CARE CENTER COMMENTS 




49 Thomas Patten Drive                                                                               781.961.1160
Randolph, Mi\ 02368
                                           Cedar Hill 
                                           Fax 781. 963 .5744

                                            Health Care Center



           June 27, 2012


           Michael J. Annstrong
           Regional Inspector General for Audit Services
           JFK Federal Building
           15 New Sudbury Street, Room 2425
           Boston, MA 02203


           Re: Report Number: A-01-12-00008


            Dear Mr. Annstrong

           We would Like to thank you for the opportuni ty to comment on the Office f the Inspector
           General Audit dOije at Cedar Hill Health Care. Ced ar Hill agrees with the reports findings
           and find that no comment is needed .




           Sincerely,


           }dt~~
           Lisa M. Coppola
           Administrator
           Cedar Hill Health Care Center
           49 Thomas Patten Drive
           Randolph, MA 02368
                                       APPENDIX C: STATE AGENCY COMMENTS


                                 The Commonwealth of Massachusetts 

                             Executive Office ofHealth and Human Services 

                                            Office of Medicaid 

                                          One Ashburton Place 

                                           Boston, MA 02108 
                                              JUDYANN BIGBY, M.D.
 DEVAL L. PATRICK
     Governor                                                                                                   Secretary

TIMOTHY P. MURRAY                                                                                          JULIAN J. HARRIS , M.D.
 Lieutenant Governor                                                                                          Medicaid Director




             July 16, 2012

             Michael J. Armstrong
             Regional Inspector General, Audit Services
             HHS/OIG/OAS
             Region I
             JFK Federai Building
             Boston, MA 02203

             RE: Audit Report No: A-01-12-00008

                Dear Mr. Armstrong :

             Thank you for the opportunity to review and comment on Draft Audit Report No: A-01-12-00008
             "Massachusetts Medicaid Payments to Cedar Hill Health Care Center Did Not Always Comply
             with Federal and State Requirements" .

                               Our responses to the report's specific recommendations are as follows :
             Recommendation: 

             1) Collect overpayments totaling $32,463 from Cedar Hill and refund .$17,896,   Fed~ral   share of 

             these payments, to CMS on the next quarterly CMS-64. 


             Response: We are in agreement with this finding_a[ld will follow the procedures described in 

             state Medicaid regulations at 130 CMR 450.237 to collect the overpayments from the provider. 

             Under 130 CMR 450.237, the provider has a due process right to contest the overpayment, 

             including the right to request an adjudicatory hearing and judicial review. 


             MassHealth will need the OIGs working papers identifying the specific claims in order to 

             undertake collection of the overpayments, notify Cedar Hill and if required, defend the 

             overpayment amounts should Red:;tone co,ltest the overpayment notice. If Cedar Hi!! does not 

             contest the overpayment collection or does not prevail in contesting this overpayment, 

             MassHealth will ensure that the EOHHS' Federal Revenue Unit will return the Federal share on 

             the appropriate CMS-64. 


             Recommendation:
             2) Continue agency efforts to ensure that Medicaid overpayments to nursing homes continlJe to
                be identified, collected and refunded .

             Response: MassHealth is in agreement with this recommendation and will ensure that periodic
             reviews and audits continue to be conducted to identify, collect and refund overpayments.
